BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in In re Special
Services Bureau, Inc., d/b/a A Regional Bonding Co.
and Sher Orem, was sent via Two Day Service to the
U.S. Supreme Court, and 3 copies via Two Day and email service to the following parties listed below, this
21st day of October, 2020:
Patrick Morrisey
Attorney General of West Virginia
Lindsay S. See
Solicitor General
State Capitol Complex, Bldg. 1, Room E-26
1900 Kanawha Boulevard East
Charleston, WV 25305
(304) 558-2021
lindsay.s.see@svago.gov
Counsel for West Virginia
Virginia Sine
Berkeley County Circuit Clerk
Berkeley County Judicial Center
380 West South Street, Suite 2200
Martinsburg, WV 25401

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Christian J. Riddell
Counsel of Record
329 S. Queen Street
Martinsburg, WV 25401
(304) 267 -3949
stedmanriddell@gmail.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 21, 2020.

Donna J . Wo
Becker Gallagher Le 1 Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

t;~blic

Date:{'j~ ~

[seal]

